MENKE JACKSON BEYER, LLP

Attorneys at Law

807 NORTH 39" AVENUE * YAKIMA, WASHINGTON 98902
(609) 575-0313 + FAX: (509) 575-0351

ANTHONY F. MENKE QUINN N. PLANT
KIRK A. EHLIS SEANN M. MUMFORD

KENNETH W. HARPER

ROCKY L. JACKSON, Of Counsel G. SCOTT BEYER, Of Counsel

January 12, 2021

Mr. Scott S. Harris via UPS overnight mail and email
Clerk of the Court sharris@supremecourt.gov

Supreme Court of the United States
Washington, D.C. 20543

Re: Confederated Tribes and Bands of the Yakama Nation
v. Yakima County, Washington, et al.

Dear Mr. Harris:

Pursuant to Supreme Court Rule 30.4, Respondents Yakima County and City of Toppenish respectfully
move for an extension of time for filing their response to Appellant Confederated Tribes and Bands of the
Yakama Nation’s Petition for Writ of Certiorari in Confederated Tribes and Bands of the Yakama Nation
v. Yakima County, et al., Docket No. 20-753.

The original deadline for the Confederated Tribes and Bands of the Yakama Nation to file its Petition for
Writ of Certiorari was Monday, September 29, 2020. The Confederated Tribes and Bands of the Yakama
Nation requested an extension of time to file and was granted an additional approximately two months to
file its Petition. The Confederated Tribes and Bands of the Yakama Nation filed its Petition for Writ of
Certiorari on November 25, 2020.

The respondents respectfully request an additional forty five (45) days to respond. The response has been
delayed due to the heavy press of cases being handled by the undersigned and the intervening holidays of
occurring in December and January. In addition, the undersigned counsel for respondents has recently
experienced an expected hospitalization which may require an emergent surgery and additional
hospitalization.

For the foregoing reasons, the respondents respectfully request an extension of the deadline for filing their
response to the Petition for Writ of Certiorari from January 15, 2021 until March 1, 2021.

Sincerely, .
.

AMA AC

Kirk A. Ehlis

CC: — Ethan Andrew Jones, counsel for Petitioner-via email and U.S. Mail
Marcus Shirzad, counsel for Petitioner — via email and U.S. Mail
